<html>
<title> - VOTING SAFELY IN A PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                      VOTING SAFELY IN A PANDEMIC

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 28, 2020

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
      
      


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
42-740                WASHINGTON : 2021 
          
         
         
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois
SUSAN A. DAVIS, California             Ranking Member
G.K. BUTTERFIELD, North Carolina     MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California

                            C O N T E N T S

                              ----------                              

                            AUGUST 28, 2020

                                                                   Page
Voting Safely in a Pandemic......................................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     4
Hon. Rodney Davis, Ranking Member................................     7
    Prepared statement of Ranking Member Davis...................     9

                               WITNESSES

Hon. Alex Padilla, Secretary of State, State of California.......    13
    Prepared statement of Hon. Padilla...........................    15
Ms. Julie Wise, King County Director of Elections, State of 
  Washington.....................................................    22
    Prepared statement of Ms. Wise...............................    24
Ms. Amber McReynolds, Chief Executive Officer, National Vote at 
  Home Institute.................................................    29
    Prepared statement of Ms. McReynolds.........................    31
Ms. Vanita Gupta, President and Chief Executive Officer, The 
  Leadership Conference on Civil and Human Rights................    35
    Prepared statement of Ms. Gupta..............................    37
Hon. Donald L. Palmer, Commissioner, U.S. Election Assistance 
  Commission.....................................................    43
    Prepared statement of Hon. Palmer............................    45

                        QUESTIONS FOR THE RECORD

Hon. Alex Padilla, Secretary of State, State of California, 
  answers to submitted questions.................................    97
Ms. Julie Wise, King County Director of Elections, State of 
  Washington, answers to submitted questions.....................   104
Ms. Amber McReynolds, Chief Executive Officer, National Vote at 
  Home Institute, answers to submitted questions.................   107
Ms. Vanita Gupta, President and Chief Executive Officer, The 
  Leadership Conference on Civil and Human Rights, answers to 
  submitted questions............................................   120
Hon. Donald L. Palmer, Commissioner, U.S. Election Assistance 
  Commission, answers to submitted questions.....................   124

                       SUBMISSIONS FOR THE RECORD

Article, The Participatory and Partisan Impacts of Mandatory 
  Vote-by-Mail, Barber and Holbein, Science Advances 2020, August 
  26, 2020.......................................................    70
Article, Intel Officials Contradict Trump on Voting by Mail, 
  Politico, August 26, 2020......................................    79
Considerations for Modifying the Scale of In-Person Voting, 
  Election Infrastructure Government Coordinating Council and 
  Subsector Coordinating Council's Joint COVID Working Group.....   129
Considerations for election Polling Locations and Voters, Centers 
  for Disease Control and Prevention.............................   137
Guidelines for Healthy In-Person Voting, Brennan Center for 
  Justice and the Infectious Diseases Society of America.........   144
Ballot Drop Box, Cybersecurity and Infrastructure Security Agency 
  (CISA) Elections Infrastructure Government Coordinating Council 
  and Sector Coordinating Council's Joint COVID Working Group....   148
Letter, R. Kyle Ardoin, Secretary of State, State of Louisiana, 
  to Tammy Whitcomb, Inspector General, United States Postal 
  Service, August 10, 2020.......................................   156


                      VOTING SAFELY IN A PANDEMIC

                              ----------                              


                        FRIDAY, AUGUST 28, 2020

                  House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 1:01 p.m., via 
Webex, Hon. Zoe Lofgren [chairperson of the Committee] 
presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Aguilar, and Davis of Illinois.
    Staff Present: Jamie Fleet, Staff Director; Dan Taylor, 
General Counsel; Brandon Jacobs, Legislative Clerk; Stephen 
Spaulding, Senior Elections Counsel; Sarah Nasta, Elections 
Counsel; Kulani Jalata, Elections Counsel; Peter Whippy, 
Communications Director; David Tucker, Senior Counsel and 
Parliamentarian; Jen Daulby, Minority Staff Director; Tim 
Monahan, Minority Deputy Staff Director; and Cole Felder, 
Minority Chief Legal Counsel for Elections.
    The Chairperson. We have a quorum, I have a gavel, and the 
Committee on House Administration will come to order.
    I want to acknowledge the members who are with us today and 
welcome my colleagues here in California, and good afternoon 
for those of you out east.
    I want to remind our members and participants of a few 
things that will help us navigate this virtual hearing.
    We are holding this hearing in compliance with the 
regulations for remote committee proceedings pursuant to House 
Resolution 965.
    Generally, the Committee will keep microphones muted to 
limit background noise. Members will need to unmute themselves 
when seeking recognition for their five minutes. Witnesses will 
need to unmute themselves when recognized for their five 
minutes or when answering a question.
    Members and witnesses, please keep your camera on at all 
times, even if you need to step away for a moment during the 
proceedings. Do not leave the meeting.
    As we begin, we should take a moment to honor an important 
anniversary in our Nation's history. Fifty-seven years ago 
today, hundreds of thousands of Americans came to our Nation's 
capital for the March on Washington for Jobs and Freedom.
    Our beloved colleague and hero, the late Representative 
John Lewis, spoke from the steps of the Lincoln Memorial that 
day. He fearlessly challenged our country's denial of freedom 
and civil rights to Black Americans, including the right to 
vote--a right that the Supreme Court more than 70 years earlier 
called ``preservative of all rights.''
    Today, many people are gathering at the Lincoln Memorial to 
commemorate the march and continue demands for voting rights, 
racial equality, police accountability, and criminal justice 
reform.
    Free and fair elections and unencumbered access to voting 
are the bedrock of our democracy. And yet, today, during a 
global pandemic the likes of which our country has not 
experienced in more than a century, voters are worried about 
how to safely vote and how to navigate potential disruptions 
this November. Nearly half of Americans expect difficulties 
voting this fall, according to recent polling by the Pew 
Research Center. It doesn't have to be that way. No one should 
be forced to choose between their right to vote or their 
health.
    In June, Chairperson Fudge convened an important 
Subcommittee hearing to examine the impact of COVID-19 on 
voting rights and election administration. Tragically, since 
that hearing, an additional 3.6 million people have become 
infected in the United States and another 59,000 Americans have 
lost their lives to the disease.
    This crisis has devastated many families and disrupted our 
way of life. The virus will continue to affect how we live for 
the foreseeable future, including how we vote. I look forward 
to hearing more today from our experts about how people can 
vote safely during this pandemic.
    Americans have cast ballots during great strife and 
national emergencies before. Civil War soldiers voted by mail 
from the battlefields. Millions of men and women in uniform 
have voted by mail since then, including after Congress passed 
the 1942 Soldier Voting Act and the Federal Voting Assistance 
Act in 1955. References to civilian mail voting date back to 
the late 1800s.
    This year, many States have changed their election 
procedures to make voting safer from a public health 
perspective. Although some voters in all 50 States can vote 
from home, the widest availability is for voters in 44 States 
and the District of Columbia who live in a no-excuse vote-by-
mail State or where fear of COVID counts as a valid excuse this 
fall. Other Americans can choose to vote early, in person, in 
one of 42 States that provide it. Early, in-person voting helps 
keep polling places less crowded. Or voters can go to polling 
places on election day itself.
    Offering various methods of voting is consistent with 
guidance from the Centers for Disease Control and Prevention, 
which recommends, ``alternative voting methods that minimize 
direct contact and reduce crowd size at polling locations.'' 
Voters should have the option to vote by mail or to vote in 
person, and it should be safe and accessible.
    The House passed reforms to make this possible 105 days ago 
in the HEROES Act, including $3.6 billion in funding for 
nationwide implementation. Unfortunately, Senate Majority 
Leader McConnell has refused to take up the legislation, 
refusing instead to delay and do nothing for months. The virus, 
however, has not delayed, nor has it simply disappeared. And, 
sadly, neither has the President's disinformation campaign 
against voting, especially absentee voting.
    The President's assault has now expanded to include even 
the United States Postal Service, a venerated and popular 
institution enshrined in our Constitution. Earlier this month, 
President Trump, as he is prone to do, said the quiet part out 
loud: He explicitly stated he opposes funding the Postal 
Service because the Postal Service facilitates voting by mail.
    Meanwhile, the Trump-appointed Postmaster General, Louis 
DeJoy, enacted disruptive operational policies that have caused 
days-long backlogs in mail delivery across the country--
policies that impeded mail service to senior citizens, 
veterans, and the sick, who depend on Postal Service to deliver 
medications and other essentials, including ballots.
    I heard from thousands of my own constituents whose mail 
had been delayed. They were outraged. After much public outcry, 
Postmaster General DeJoy announced some of the policy changes 
would be paused until after the election.
    This reckless management of the Postal Service warrants 
close scrutiny and continued accountability. The House did its 
part on Saturday, passing the Delivering for America Act on a 
bipartisan basis, to prohibit the Postal Service from 
implementing any further changes that will delay mail and 
reduce delivery standards.
    The bill would also require the Postal Service to treat all 
election mail as first-class mail, as has been its practice for 
years. And it will provide the $25 billion in much-needed 
funding that its board of governors--each governor appointed by 
President Trump himself--has requested.
    Still, the President continues to spread disinformation and 
falsehoods about the safety and security of voting. They do not 
bear repeating at a congressional hearing.
    What does bear repeating is the best way voters can stand 
up to bullies at the ballot box: Make a plan to vote. Register 
to vote or confirm your registration and update it if 
necessary. Do that as soon as possible. Visit vote.gov for more 
information.
    Decide if you plan to vote in person or by mail. Research 
your options. Follow those instructions carefully, including if 
you need to request a ballot. Request and cast your ballot 
early if you can.
    And if you are healthy and able, consider signing up to 
work as a poll volunteer by going to HelpAmericaVote.gov. Many 
jurisdictions scrambled at the last minute to find poll workers 
this spring and summer. You can do your part by considering 
this public service.
    Now, I look forward to the testimony today, and I want to 
recognize first the Ranking Member, Mr. Davis, for any opening 
statement he may wish to make. I understand he wishes also to 
show a video of less than two minutes as part of his opening 
statement.
    So, Mr. Davis, you are now recognized.
    [The statement of the chairperson follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Mr. Davis of Illinois. Thank you, Madam Chair. And thank 
you for recognizing our colleague John Lewis and the difference 
he made to our Nation not so long ago.
    I want to do something a little different today and start 
off my testimony, as you mentioned, by playing a video that was 
brought to my attention a couple of days ago and that I was so 
haunted by the rhetoric that I can't unsee and I can't unhear 
it. Because it is this kind of unnecessary, over-the-top 
rhetoric that led to me and my Republican colleagues getting 
shot at on a baseball field just over 3 years ago. It is 
actually a video by the Democratic Association of Secretaries 
of State, whose chair is a witness today at this hearing.
    Here is the video.
    [Video shown.]
    Mr. Davis of Illinois. Thank you, Madam Chair.
    White supremacy doesn't have any place in our Nation, but 
it is over-the-top rhetoric like that that has led to many, 
many situations that I don't want to see happen to anyone in 
this country.
    Recent analysis by NPR found that nearly half a million 
mail-in ballots were rejected in the 2020 primaries. The same 
analysis noted, ``Studies also show that voters of color and 
young voters are more likely than others to have their ballots 
not count.''
    In California alone, 102,000 ballots were rejected; 84,000 
in New York; 23,000 in Wisconsin. These are Democrat States.
    In the last four elections, more than 28 million mail-in 
ballots went missing, according to the EAC. Yet Democrats on 
this Committee, in this House, and across the country continue 
to push implementing universal vote-by-mail before the November 
election, just over 60 days away.
    Additionally, during the 2020 primaries, we saw the closure 
of polling places across the country force people to wait hours 
in line to vote. Washington, D.C., closed more than 120 polling 
places. In Atlanta, voters waited upwards of five hours to vote 
because of consolidated polling locations. Milwaukee went from 
180 to 5 polling places. In Philadelphia, 77 percent of the 
polling locations were closed. In Houston, voters reported 
waiting close to 6 hours to vote. All of these cities are run 
by Democrats.
    The Voting Rights Act of 1965 fought against discrimination 
to ensure every American could cast their vote. I am afraid the 
vote-by-mail policies being pushed by Democrats are 
unintentionally taking us backwards.
    I have sent oversight letters to localities where we see 
these issues during their recent primaries because I am 
concerned that, unless changes are made, voters will be 
disenfranchised again this fall. Again, most of these are 
Democrat-controlled areas.
    I am very concerned about fraud when a live ballot is 
mailed to every registered voter in States where their voter 
rolls are not up to date.
    I want integrity in our election process, not because I 
want to suppress votes but because I want every vote to count. 
I want the American people to have the confidence that we all 
have in our election process. This doesn't make Republicans or 
anyone else who shares these concerns racist or White 
supremacist. And I am incredibly disappointed that the ad I 
played earlier insinuates that.
    As I said at the beginning of my testimony, this is the 
kind of rhetoric that has led to violence that I personally 
witnessed and even violence last night in Washington, D.C. No 
one--no one--should stand for that. Instead, let's discuss our 
differences and find common ground to empower States and 
localities to help everyone safely and securely vote this fall.
    With that, Madam Chair, I will yield back the balance of my 
time.
    [The statement of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. We have a distinguished group of 
witnesses, and I will introduce them in turn.
    First, we have Secretary Alex Padilla, who is the 
California secretary of State. He is focused on modernizing the 
office, increasing voter registration and participation, and 
strengthening voting rights.
    In 2018, he launched the California Motor Voter program, 
which automatically registers eligible Californians to vote 
when they obtain or renew their State ID or driver's license. 
The program registered one million new voters in its first year 
alone. In March 2019, California reached a record-high 20 
million registered voters.
    He also oversaw the 2018 election, in which 64.5 percent of 
registered voters cast a ballot, the highest turnout for a 
gubernatorial election since 1992. He sponsored legislation in 
2015 to establish vote centers, expand early voting, and 
implement same-day conditional voter registration through the 
Voters Choice Act.
    Previously, he served two terms in the California State 
Senate and represented the east San Fernando Valley on the Los 
Angeles City Council. He grew up in the San Fernando Valley, 
attended local schools, graduated from the Massachusetts 
Institute of Technology with a degree in mechanical 
engineering.
    And I remember, when he was elected head of LULAC, he said 
he only had time for two things besides being in the State 
Senate, being a husband and a father, and that was being chair 
of the MIT alumni association.
    So welcome to you.
    We also have Julie Wise, who is the director of elections 
for King County, Washington, since November of 2015. King 
County is the 13th-largest county in the Nation and has 
approximately 1.3 million registered voters. She has served 
King County for more than 15 years, including, prior to her 
election, as the deputy director of elections, managing day-to-
day operations of elections.
    A Washington State-certified election administrator and 
nationally certified election registration administrator, Ms. 
Wise has been recognized at both the State and national level 
for her contributions to moving elections forward.
    Ms. Wise has pursued significant reforms and innovative 
solutions to remove barriers and increase access while ensuring 
accuracy, security, and transparency. She has added two 
languages, allowing voters to access election services in five 
overall: English, Chinese, Korean, Spanish, and Vietnamese. In 
2018, she worked with the King County Council and executive to 
prevail in providing prepaid postage for all registered voters 
in the county.
    And we welcome you.
    We also have Ms. Amber McReynolds. She is the CEO for the 
National Vote at Home Institute and Coalition, the coauthor of 
``When Women Vote,'' and the former director of elections for 
the city and county of Denver, Colorado.
    She is an experienced election professional and is 
nationally recognized as an innovator and has proven that 
designing pro-voter policies, voter-centric processes, and 
implementing technical innovations will improve the voting 
experience.
    With her leadership, Denver Elections earned national and 
international recognition from the U.S. Election Assistance 
Commission, Election Center, and National Association of 
Counties, and the International Center for Parliamentary 
Studies for Ballot TRACE, a first-in-the-Nation ballot 
tracking, reporting, and communication engine, and eSign, a 
digital petition circulation application that makes the ballot 
access process more efficient.
    She was recognized in 2018 as the top public official of 
the year by Governing magazine for her transformational work to 
improve the voting experience in Denver and across Colorado. 
And, recently, she was recognized as one of the top 25 most 
powerful women in business in Colorado.
    She serves on the advisory board for the MIT Election Data 
and Science Lab and on other boards and organizations. She has 
a master of science from the London School of Economics in 
political science and a bachelor of arts from the University of 
Illinois at Champaign-Urbana.
    Amber, thank you so much for being here.
    We would also like to recognize Ms. Vanita Gupta, who is 
president and CEO of the Leadership Conference on Civil and 
Human Rights.
    She has been working to advance civil rights her entire 
career. Before joining the Leadership Conference in June of 
2017, Ms. Gupta served as Acting Assistant Attorney General and 
head of the U.S. Department of Justice's Civil Rights Division. 
Appointed in October 2014 by President Barack Obama as the 
chief civil rights prosecutor for the United States, she 
oversaw a wide range of criminal and civil enforcement efforts 
to ensure equal justice and protect equal opportunity for all 
during one of the most consequential periods for the division.
    Under her leadership, the division did critical work in a 
number of areas, including advancing constitutional policing 
and criminal justice reform, prosecuting hate crimes and human 
trafficking, promoting disability rights, protecting the rights 
of LGBTQ individuals, ensuring voting rights for all, and 
combating discrimination in education, housing, employment, 
lending, and religious exercise.
    Prior to joining the Justice Department, Ms. Gupta served 
as deputy legal director and director of the Center for Justice 
at the American Civil Liberties Union. She joined the ACLU in 
2006 as a staff attorney. She began her legal career at the 
NAACP Legal Defense and Education Fund.
    She graduated magna cum laude from Yale University and 
received her law degree from the New York University School of 
Law, where she later taught civil rights litigation at their 
clinic for several years.
    And we welcome you.
    And, finally but not least, Commissioner Donald Palmer was 
confirmed to the EAC in 2019. He is a former Bipartisan Policy 
Center fellow, where he provided testimony to State 
legislatures on election administration and voting reforms 
concerning election modernization.
    Commissioner Palmer was appointed secretary of the Virginia 
Board of Elections by former Virginia Governor Bob McDonnell in 
2011 and served as the Commonwealth's chief election officer 
until 2014. He formerly served as the Florida Department of 
State's director of elections.
    Prior to his work in election administration, he served as 
a trial attorney with the Voting Rights Section of the 
Department of Justice's Civil Rights Division. He was a U.S. 
Navy intelligence officer and judge advocate general, and he 
was awarded the Navy Meritorious Service Medal, the Navy 
Commendation Medal, and the Joint Service Commendation Medal.
    And we welcome you, Commissioner, and all of the witnesses.
    And I would remind the witnesses that your full statements 
will be submitted to the record, and we would like you to 
address us for about five minutes, summarizing your testimony, 
and then we will go to members for questioning.
    So, first, we will turn to you, Secretary Padilla. Thank 
you so much for being here with us.

 STATEMENTS OF THE HONORABLE ALEX PADILLA, SECRETARY OF STATE, 
   STATE OF CALIFORNIA; JULIE WISE, KING COUNTY DIRECTOR OF 
    ELECTIONS, STATE OF WASHINGTON; AMBER MCREYNOLDS, CHIEF 
  EXECUTIVE OFFICER, NATIONAL VOTE AT HOME INSTITUTE; VANITA 
   GUPTA, PRESIDENT AND CHIEF EXECUTIVE OFFICER, LEADERSHIP 
CONFERENCE ON CIVIL AND HUMAN RIGHTS; AND THE HONORABLE DONALD 
  L. PALMER, COMMISSIONER, U.S. ELECTION ASSISTANCE COMMISSION

            STATEMENT OF THE HONORABLE ALEX PADILLA

    Mr. Padilla. Well, thank you, Chairperson Lofgren, Ranking 
Member Davis, and members of the Committee, for the opportunity 
to address you today.
    I want to talk about the two greatest threats to a free, 
fair, and safe election this November: the COVID-19 pandemic 
and election disinformation.
    California held its primary on March 3 of this year, and 
our first COVID-19 emergency declaration was issued the very 
next day. We soon began to hear from local officials that many 
of the polling places and poll workers that we were depending 
on for the November election were backing out. And as we 
listened to Federal and State health officials, it quickly 
became clear that we would need to modify how we administer the 
general election if we were to keep the election accessible, 
secure, and safe.
    The California voters will not have to choose between 
exercising their right to vote and protecting their health, so 
we are expanding vote-by-mail while working to maintain safe, 
in-person voting options for voters who need it. California is 
well-positioned. Vote-by-mail has grown from 25 percent of 
ballots cast about 20 years ago to 72 percent in this year's 
primary.
    So my office convened stakeholders to identify potential 
challenges and to develop solutions. Our recommended plan, 
adopted by the Governor and our State legislature, includes the 
following:
    County elections officials will send every active 
registered voter a vote-by-mail ballot.
    We are expanding our ballot tracking tool statewide, where 
voters can sign up to receive notifications by email, by text 
message, or a phone call on the status of their ballot through 
the Postal Service, both on its way to the voter and on its way 
back to the county, including a final alert when their ballot 
has been received and when the ballot has been counted. More 
than 600,000 California voters have already signed up.
    We are extending our postmark-plus-3 policy to postmark-
plus-17.
    And we have set alternative minimum in-person voting 
requirements for counties that are struggling to maintain the 
pre-pandemic number of in-person voting locations. So counties 
may consolidate polling places to one location for every 10,000 
registered voters, but they must be open for a minimum of four 
days leading up to and including election day.
    These counties must also provide a minimum of one ballot 
drop-off location for every 15,000 registered voters starting 
28 days before election day.
    And, of course, we are working with public health officials 
to craft the health and safety guidelines for in-person voting 
locations.
    Now, these measures require resources. Thanks to the recent 
HAVA and CARES Act appropriations and significant State 
appropriations, California is in an okay position, but other 
States can't say the same. Many States have not received State 
funding, and many States that have held their primary elections 
during this pandemic have expended most, if not all, of their 
CARES Act funds. So I respectfully urge you to appropriate more 
funding for elections as soon as possible.
    The other threat I mentioned is election disinformation. 
Baseless attacks on the integrity of our elections pose a 
serious danger to the health of our citizens and our democracy. 
Disinformation, amplified and often initiated by President 
Trump, about vote-by-mail, ballot drop boxes, and more 
undermines public confidence.
    Numerous reports and court decisions have found that voter 
fraud is rare and isolated. To quote U.S. District Court Judge 
Julie Robinson of Kansas, ``The rare known cases of voter fraud 
were not the tip of the iceberg. There is no iceberg, only an 
icicle, largely created by confusion and administrative 
error.''
    And, earlier this week, the FBI said they have no 
information or intelligence that any nation-state threat actor 
is engaging in activity to undermine any part of the mail-in 
vote or ballots.
    I also have to say I am deeply concerned about the Postal 
Service. The ability of the USPS to effectively handle the 
surge of vote-by-mail will rely on close collaboration with 
State and local election officials, the approval of overtime 
and expansion of their workforce, and expanding mail-sorting 
capacity and the number of mailboxes. California is prepared, 
but we do not control the Postal Service. We need your help to 
ensure a healthy USPS.
    Together, these threats pose unprecedented dangers to 
elections officials and to voters. To protect our democracy, 
State and local elections officials must act now. California 
provides a template, but we need Congress to provide the 
resources to ensure an accessible, secure, and safe election.
    Thank you.
    [The statement of Mr. Padilla follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. Thank you very much, Secretary Padilla.
    And now I would like to ask Ms. Wise if you would give your 
testimony for about five minutes.

                    STATEMENT OF JULIE WISE

    Ms. Wise. Good morning, Chairperson Lofgren, Ranking Member 
Davis, and members of the Committee. Thank you for the 
invitation to testify before you today.
    My name is Julie Wise, and I am the director of elections 
for King County, Washington. King County is made up of 39 
cities, ranging from Seattle to suburbs, small towns, and rural 
communities like where I live, on a farm at the base of Mount 
Rainier. We are home to the most diverse ZIP Code in the 
country as well as multibillion-dollar tech companies, farmers, 
artists, and small businesses. Most importantly, from my 
perspective, we are home to 1.4 million registered voters who 
care deeply about their community.
    I have been working elections for 20 years. I have overseen 
polling places, the transition to all-mail, and now manage 
elections for one of the largest vote-by-mail counties in the 
country.
    I would like to start this morning by addressing some 
misinformation about vote-by-mail that has been circulating of 
late.
    First, voting by mail is secure. Before we moved to vote-
by-mail, we managed 8,000 poll workers across as many as 700 
polling locations. Now, we process every single ballot at one 
location, our secure headquarters. Not only does this limit 
risk, it means I can directly oversee the entire operation. It 
means we can track and reconcile every ballot. And it means the 
public and observers have complete transparency. All of our 
elections staff are highly trained paid employees who swear to 
uphold the sanctity of the election.
    Second, voter fraud is almost nonexistent. While we have 
seen many claims, often fueled by speculation and little 
evidence, the reality is that we have many safeguards to 
prevent fraud. We ensure accurate voter rolls by working with 
other States, the Department of Licensing, USPS, and the Social 
Security Administration.
    In King County and Washington State, cases of suspected 
fraud are incredibly low. In 2016, King County elections 
referred 17 cases of potential voter fraud to our prosecuting 
attorney, and that is out of a million ballots cast, compared 
across 30 States, for a rate of just 100,000th of a percent.
    Third, the United States Postal Service is essential to 
democracy, and I have found recent reports of removing 
mailboxes and lagging delivery times incredibly troubling.
    What I can tell you about our experience in Washington is 
that we benefit from a decades-old relationship with our Postal 
Service partners, whom we meet with regularly and daily during 
an election. The good news is that, in our August primary 
election, we saw normal delivery times for both our outgoing 
and inbound ballots.
    However, let me be clear: I view any threat to the Postal 
Service as an attack on our community's right to vote. I will 
be closely monitoring changes and continuing to meet with USPS 
to make sure we stay in front of any issues ahead of November.
    I also know there has been speculation that ballot drop 
boxes aren't secure. Constructed of half-inch-thick steel and 
weighing in over 1,000 pounds, I can assure you that our 70-
plus boxes are safe. We even had one hit by a school bus, and I 
can attest that the box and its contents were just fine. The 
school bus? Not so much.
    Over half of our voters use a drop box to return their 
ballot. They are emptied daily during the voting period by 
trained staff in teams of two, complete with a comprehensive 
set of security procedures.
    Finally, vote-by-mail removes barriers. I believe that my 
job is not only to conduct accurate elections but also to 
remove barriers to voting. From creating a first-in-the- Nation 
partnership to provide community grants for voter education, to 
adding service in new languages, to partnering with the Seattle 
Seahawks, we have found new ways to engage voters.
    And we have seen the results: King County reached 76-
percent turnout in the 2018 midterm election and nearly 60 this 
year for our primaries. In fact, this fall, we are projecting a 
90-percent turnout.
    Of course, we live in a different world now than we did 
just 6 months ago, and I am doing a number of things to make 
sure we are ready for the upcoming Presidential election in 
light of COVID-19.
    I want to underscore how critical the grant dollars were 
that we received through the CARES Act. While King County may 
be well-positioned to handle an election during a pandemic, 
there has been a lot to do to make sure that our voters and 
staff are safe. We have set up drive-through vote centers, 
installed partitions and plexiglass, and implemented 
temperature checks. CARES dollars have ensured that our voters 
can make their voice heard safely and our staff don't have to 
risk their lives to help make democracy happen.
    Over the last several months, my office has gotten 
inquiries from across the country about how to do vote-by-mail. 
The reality is that every jurisdiction already does some form 
of vote-by-mail. That is what absentee voting is.
    The challenge for these jurisdictions is how to expand 
their ability to handle a whole lot more mail ballots. First, 
they need resources to expand their existing operations and to 
communicate with their voters.
    Beyond that, my main piece of advice is that we all need to 
start resetting expectations about results on election night. 
We are not going to know final results, and that is okay. To 
process ballots accurately takes time. We need to make sure 
jurisdictions have the time and space without having the 
election's validity questioned.
    Thank you again for inviting me here today.
    [The statement of Ms. Wise follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. Thank you very, very much.
    We now will hear from Ms. McReynolds for about five 
minutes.

                 STATEMENT OF AMBER MCREYNOLDS

    Ms. McReynolds. Good morning, Chairperson Lofgren and 
Ranking Member Davis and members of the Committee. Thank you 
for the opportunity to speak today.
    First, I want to say congratulations to my dad really 
quickly. He was just sworn in to a higher court in Illinois a 
few days ago, and we couldn't make it. So if he is watching, 
congrats, Dad.
    As mentioned, my experience not only is now, currently, 
running an organization that is supporting election officials 
across the country, but, formerly, I was an elections director 
and oversaw election processes for 13 years. And I am also an 
unaffiliated elector, which I will also like to highlight, in 
terms of my political affiliation.
    The pandemic has upended all aspects of our lives, and the 
voting process is no different. Simply put, our democracy is 
essential, and we must do everything we can to be sure that our 
election system is ready, resilient, and secure. Election 
officials are working each and every day to make this happen, 
even in extremely challenging circumstances and often with one 
hand tied behind their backs due to outdated laws and a lack of 
funding resources.
    What is clear to me during this pandemic and other 
challenges we have faced as a Nation is that Americans are 
resilient. And they deserve a voting process that is also 
resilient, not only from a pandemic, but from unfairness, 
barriers, burdens, from foreign adversaries, and from 
administrative deficiencies due to outdated policies that 
create long lines.
    Voting by mail has proven to be resilient both during 
natural disasters and also now during the pandemic. Expanding 
vote-at-home options is nonpartisan and supported by leaders on 
both sides of the aisle.
    I want to address a few key concerns that have come up 
recently.
    As noted in a CISA report released on July 31, and I quote, 
``Disinformation risk to mail-in voting infrastructure 
processes is similar to that of in-person voting while 
utilizing different content. Threat actors may leverage limited 
understanding regarding mail-in voting to mislead and confuse 
the public.''
    Now, this report is critical at highlighting not only an 
issue within the security of our elections but particularly as 
it relates to vote-by-mail, and this includes casting doubt, 
without evidence, about the mail ballot process. Thus, 
combating disinformation and misinformation is a critical 
aspect of election officials' work right now.
    The Postal Service operations are critical for our election 
processes regardless of voting method. Mail ballots are 
actually just one piece of how the Postal Service supports the 
election infrastructure. Federal and State laws have legal 
mandates with regards to sending voter registration 
information, ballot issue notices, election information, poll 
worker appointment letters, polling place notification cards, 
and other required mailings. All of these are legally required 
and are at risk if the Postal Service is unable to process mail 
effectively or experiences delays. And this is especially 
important during the critical time period around election day.
    Some States, such as Michigan, Pennsylvania, Wisconsin, 
Maryland, and Minnesota, have also not updated certain election 
laws and processes to ensure adequate time to process mail 
ballots, which has caused recent delays with election results.
    Local election officials and State officials have 
repeatedly highlighted this gap, and some State policymakers 
have refused to make the necessary adjustments even though they 
are simply operational, not partisan. States still have time to 
close those gaps and support election officials with their 
work.
    Let me be clear: Election results have never been final on 
election night. There are specific post-election processes, 
including receiving and counting military ballots, processing 
provisional ballots, auditing the voting system, and canvassing 
the election results, that happen, and then certification 
occurs.
    Additionally, many western voters are still casting ballots 
when the media starts to call winners in eastern States. This 
has been a problem for decades, and it is not new this year.
    As with every part of our election system, we must be able 
to deter, detect, and hold bad actors accountable that try to 
interfere with the voting process. While voter fraud is 
exceedingly rare in elections regardless of method, it is still 
critical for election officials to detect malicious activity 
and for voters to report suspicious activity to appropriate 
authorities. Our democracy functions when every eligible voter 
is able to exercise their right to vote.
    No system is perfect, and this is why it is critical to 
continually review and improve systems by enhancing security, 
access, and transparency. An example of a necessary improvement 
is ballot tracking systems or risk-limiting audits.
    Democracy is the shared DNA of our communities and 
throughout our history. Election administration and policy must 
be about who votes and not who wins, and we must put voters 
first. Just like the Postal Service, election administration is 
a service and must be free from partisan politics.
    [The statement of Ms. McReynolds follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. Thank you very much.
    We will now turn to Ms. Gupta.
    And you are recognized for about five minutes.

                   STATEMENT OF VANITA GUPTA

    Ms. Gupta. Thank you, Chairperson Lofgren, Ranking Member 
Davis, and members of the Committee. Thank you for the 
opportunity to testify today for safe, fair, and accessible 
elections during the COVID-19 crisis.
    The fight for American democracy requires a new urgency as 
the Nation grapples with a confluence of crises, from a global 
pandemic, to a looming economic recession that is hitting 
communities of color hardest, to widespread outrage about State 
violence against Black people. Taken together, these crises 
really expose how deeply racial inequality continues to 
permeate American life. We need strong democratic institutions 
and voting options free from unnecessary encumbrances now more 
than ever.
    The Leadership Conference has been profoundly troubled by 
the recent operational changes within the U.S. Postal Service. 
Americans depend on the U.S. Postal Service for timely, 
affordable access to medication and daily necessities. It is 
also an essential service for voting amid a pandemic. Voters 
should not be forced to choose between their health and their 
fundamental right to vote, and sabotaging the U.S. Postal 
Service could do just that.
    Our Nation has a long and troubling history of denying 
people of color the right to vote. Even as we commemorate the 
March on Washington and celebrate the 100th anniversary of 
women's suffrage, we remember that African-American women and 
women of color were not able to exercise the franchise for 
decades after the ratification of the 19th Amendment. And while 
the Voting Rights Act of 1965 offered new tools to fight 
blatant forms of discrimination, people of color have continued 
to face barriers to voting, especially after five Justices on 
the Supreme Court invalidated the VRA's key enforcement 
provisions in 2013.
    Despite the best efforts of the Leadership Conference 
coalition to protect voting rights for vulnerable communities, 
voter suppression continues today to take its toll. What we 
have seen in this year's primary elections alone provides a 
dire warning of what we could expect in November without 
congressional action, from undelivered absentee ballots, to 
unreasonably long lines, to polling place closures, to 
undertrained staff, to disinformation campaigns that are 
specifically targeting voters of color.
    That is why lawmakers must act now to ensure that the 
general election is fair, safe, and accessible and support 
State and local election officials that are trying to do just 
this.
    First, it means taking immediate action to preserve the 
integrity of the Postal Service. The USPS is legally required 
to deliver mail to all postal addresses no matter how far it 
may have to travel or how profitable the work. The 
accessibility and affordability the USPS provides is crucial to 
seniors, people with disabilities, veterans, and rural and 
Tribal communities.
    In response to the alarming problems at the USPS and 
disinformation efforts to undermine voters' confidence in 
voting by mail from officials in the highest offices of the 
land, a bipartisan House majority passed the Delivering for 
America Act last weekend. This bill needs to be made into law. 
It would provide USPS with the $25 billion in emergency funding 
and restore services. And we are really encouraged by this 
important step to protect the U.S. Postal Service.
    However, our concerns on the upcoming election go well 
beyond the U.S. Postal Service. We are just over 2 months away 
from the 2020 general election, and States need funding to 
prevent a repeat of the disasters during the primaries this 
spring and summer. Congress must allocate the $3.6 billion that 
was in the HEROES Act now for States to fully prepare for 
November and provide voters with a range of options to safely 
cast their ballot.
    The Leadership Conference is pushing in States, as well, to 
expand online and same-day voter registration, to ensure access 
to no-excuse absentee ballots with prepaid postage, prohibit 
the requiring of notarization of witness signatures to cast an 
absentee ballot, automatically mail absentee ballots to all 
registered voters no later than 2 weeks before election day, 
require the counting of ballots postmarked on or before 
election day, and have widely available secure drop boxes.
    They must expand in-person early voting and ensure that 
voters residing on Indian lands can vote by maintaining safe, 
in-person voting options and provide secure return drop boxes.
    And, lastly, there is a huge urgency to provide funds to 
States to be able to educate voters about all of the rule 
changes and combat disinformation.
    We are also encouraging voters to make sure they understand 
how to take direct action themselves by making sure they are 
registered, making a plan to vote early, and to sign up to be a 
poll worker.
    For the past 70 years, the Leadership Conference coalition 
has fought to open the doors to our democracy. And for the next 
70 days, we are going to do everything that we can in our power 
to push Congress to safeguard the right to vote in the critical 
November election.
    Thank you.
    [The statement of Ms. Gupta follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairperson. Thank you so very much for your testimony.
    And now we will turn to Commissioner Palmer.
    You are recognized for about five minutes.

          STATEMENT OF THE HONORABLE DONALD L. PALMER

    Mr. Palmer. Thank you. Good afternoon, Chairperson Lofgren, 
Ranking Member Davis, and members of the Committee. I 
appreciate the opportunity to testify today on the Election 
Assistance Commission's ongoing work to support election 
officials and the voters they serve.
    Election officials are working tirelessly to ensure that 
elections are safe, accessible, secure, and accurate. I would 
like to thank Congress for funding to the States in response to 
the pandemic and to assist in the security of elections. The 
agency has distributed almost $1.2 billion in grant funding 
since 2018, including $400 million in recent CARES Act funds. 
These revenue sources have proven vital in preparing for 
November.
    While funding of the Commission and its mission remains 
below its historic budget levels, we were able to pivot and 
prioritize our response to COVID by bolstering existing 
programs and developing new services.
    The EAC held a series of virtual forums of lessons learned, 
discussing ways to improve election procedures for the benefit 
of voters. We hosted over 25 forums with officials to hear what 
went right and what went wrong. We discussed absentee and mail 
voting adjustments, in-person polling place safety, and 
assistance for voters with disabilities.
    Americans should feel confident that in-person voting 
locations will be safe for voting. We work closely with the 
Centers for Disease Control to revise guidelines to ensure in-
person voting is a safe option for voters. And, of course, 
CARES Act funds have been used to purchase PPE for election 
workers and sanitize polling places.
    As we sit here today about 60 days prior to election day, 
the train is preparing to leave the station. The 45-day 
deadline for the sending of overseas and military ballots is 
September 19, only 3 weeks from now.
    The men and women who serve as election administrators 
across the country are engaged in a Herculean effort, 
overcoming the challenges of a pandemic and addressing the 
concerns and needs of the American people. They deserve much 
credit and respect.
    Right now, they are processing millions of voter 
registrations, recruiting and training poll workers, preparing 
ballots, testing the voting equipment, and focused singularly 
on making this election a success for Americans.
    The EAC is helping States prepare for the anticipated 
increase in the use of absentee or mailed ballots. States are 
using CARES Act grants to fund additional materials, postage, 
and personnel associated with this shift. Some are using this 
funding to implement online portals to request absentee ballots 
and make the process for requesting mailed ballots a more 
efficient and secure process.
    During the primary season, there were a number of ballots 
rejected due to the lack of signatures or that arrived past 
deadlines. In a recent EAC roundtable, a Postal Service 
representative recommended that voters requested their absentee 
ballots no later than 15 days prior to election day and 
returned no later than seven days prior to election day. In my 
opinion, voters should start the process even earlier, 20 to 30 
days prior to election day or ballot return deadlines.
    Voter education at the State and local level is essential 
to reduce the chances of error, omission, or delay in return or 
counting of a ballot.
    One critical item for in-person voting is to ensure----
    [Audio interruption.]
    The Chairperson. I think we have a glitch with Commissioner 
Palmer's WiFi perhaps.
    Mr. Davis of Illinois. Madam Chair, while we are waiting 
for him to come back and finish his statement, can I raise a 
point of personal privilege real quick and get an answer?
    The Chairperson. Sure.
    Mr. Davis of Illinois. We had one of our members have to 
back out today, late notice. Will I get a chance to do a second 
round for the minority at some point?
    The Chairperson. Yes. I am planning to do a second round of 
questions.
    Mr. Davis of Illinois. Thank you, Madam Chair.
    The commissioner is back.
    The Chairperson. Mr. Palmer, I think your WiFi is going on 
and off.
    Mr. Palmer [continuing]. Deadlines, issues have arisen in 
jurisdictions that use postmarks to ensure ballots received 
after election day were mailed on time. As more States have 
begun providing prepaid envelopes to voters, there have been 
problems with the uniform application of postmarks for this 
type of mail.
    In New York and Wisconsin, local officials took the time to 
reach out to postal officials to ensure ballots would be 
postmarked, but thousands of ballots slipped through. The 
Postal Service has stated its policy is to postmark domestic 
election mail even when prepaid.
    A clear directive from the Postal Service that ensures 
every ballot sent as election mail receives a clear, legible 
postmark would support uniformity and help avoid any confusion 
or controversy.
    I would encourage city and county governing bodies to give 
election administrators whatever emergency support may be 
necessary to meet all deadlines and assure administrators that 
they have the support necessary to secure polling places and 
poll workers.
    The efforts of election administrators on behalf of voters 
who are not only here in the U.S. but also for our overseas and 
military voters are crucial to our democracy. We look forward 
to our continued work together to support election officials 
and the voters they represent.
    Thank you.
    [The statement of Mr. Palmer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. Thank you very much, Commissioner.
    And now we have a time when each Member of the Committee 
may question the witnesses for five minutes. And I would like 
to turn to the Ranking Member first to begin with the 
questions.
    Mr. Davis, you are recognized for five minutes.
    You need to unmute.
    Mr. Davis of Illinois. Yep. Not like we haven't been on 
this rodeo before. I apologize.
    I do have some questions for Ms. Wise.
    If you could, Ms. Wise, just--first off, thanks for being 
here. I appreciated your opening statement.
    And, Ms. McReynolds, go Illini. Tell your dad I hope never 
to see him in the courtroom in Henry County, but 
congratulations.
    But I want to ask Ms. Wise: Many are pushing for your 
counterparts in other States to jump headfirst into all-mail 
elections, even at this late date. I am really concerned any 
sort of switch at this point on the calendar is going to cause 
some election administration issues.
    So I am going to give you a series of questions. Can I just 
get a ``yes'' or a ``no'' answer? Because I don't have a lot of 
time and I am the only one on our side.
    Was the reason King County delayed its move to all-mail 
elections was because it needed time to procure the necessary 
equipment, adequate personnel, and working space, yes or no?
    Ms. Wise. I don't know what delay you are speaking of.
    Mr. Davis of Illinois. Okay. Yes or no, it took King County 
four or five years to transition to all-mail voting, right?
    Ms. Wise. No.
    Mr. Davis of Illinois. How long did it take?
    Ms. Wise. We went a decade ago to vote-by-mail. And I am 
not sure of, like, the actual process. I mean, I think 86 
percent of our voters were already permanent absentee voters at 
that point.
    Mr. Davis of Illinois. Okay.
    I understand the procurement process for high-speed sorting 
machines can take some time, not to mention staff training. If 
a State started today, it would be impossible for them to come 
up with the equipment, personnel, and space they needed by 
November, yes or no?
    Ms. Wise. It depends on how many absentee voters they have. 
So we are already processing mail ballots right now, right? I 
mean, every jurisdiction has some amount of absentee voters, so 
it just depends on how big.
    Mr. Davis of Illinois. I don't have a lot of time, and I 
don't want to be like some of my colleagues on other committees 
and have to reclaim my time.
    I understand Washington State, like my home State of 
Illinois, is a member of the ERIC system, which helps 30 States 
and D.C. keep their voter rolls up to date by comparing 
information across States. I think being a member of ERIC has 
benefited King County by ensuring you are able to send ballots 
to voters at the correct address, right?
    Ms. Wise. Correct. Yes.
    Mr. Davis of Illinois. Thank you.
    The Postal Service's operational issues aren't new. I mean, 
recently, FiveThirtyEight found that more than 30 States have 
mail ballot request and return deadlines that are incompatible 
with longstanding Postal Service deadlines.
    More than 30 States have mail ballot request and return 
deadlines incompatible with longstanding Postal Service 
deadlines. With more Americans expected to vote by mail this 
fall, I am concerned these dual issues are pushing us toward 
major election administration issues in November.
    So I appreciate your time, Ms. Wise, and I agree we have to 
be better at our election administration.
    While I have a little more time, I would like to turn to 
you, Secretary Padilla.
    Mr. Padilla. Yes, sir.
    Mr. Davis of Illinois. Thanks for being here today.
    As you know, my office has sent you numerous letters 
requesting to meet with you and your staff, but we have heard 
nothing back. So it is good we are finally able to discuss the 
serious election administration issues that I see occurring in 
California. But, you know, unfortunately, we haven't been able 
to get this done beforehand. That is a little disappointing to 
me.
    I am absolutely disgusted by the advertisement I showed 
earlier, which was released by your Association of Secretaries 
of State. You lead that group. The greatest threat to the 
integrity of our elections is partisanship, and I have seen no 
better example of destructive partisanship than that ad.
    So I think it is important to focus on the current and 
serious election administration issues in your home State of 
California--rejected ballots, bungled registration lists, and 
rampant ballot harvesting. NPR says that over 100,000 
California mail ballots were rejected this year alone. Studies 
tell us young voters, people of color, usually pay the price. 
No well-managed system should have so many ballots rejected.
    In case you are not aware, the National Voter Registration 
Act requires you to maintain accurate voter registration lists. 
I say this because, considering how many times you have been 
sued or threatened to be sued for noncompliance with the NVRA, 
I am not sure this is getting through.
    You even entered into a legal settlement recently that 
forces you to comply with the law. But, apparently, that wasn't 
enough, because, just this past April, you received a letter 
that indicated that California is still not in compliance with 
the NVRA, particularly those sections requiring deceased or 
ineligible registrants to be removed.
    Are you aware of how many California registrants on your 
voter rolls are likely deceased or have moved out of State?
    Mr. Padilla. Multiple questions there, so if you afford me 
a few minutes, I will respond to each one of them.
    First of all, I agree we haven't been able to set up a call 
or a meeting, but I do believe my office has been responsive to 
every question and request for information that your office has 
made of mine, number one.
    Number two, I couldn't agree more that the fundamental 
right to vote, to making it easier for eligible citizens to 
register to vote and to stay registered and to cast their 
ballot, should not be a partisan issue. But when you see 
different policies that are being implemented in different 
States that have the net effect of making it harder and, 
specifically, making it harder disproportionately on young 
people or communities of color, et cetera, lower-income 
families, to register, stay registered, and to vote, then it 
does have a discriminatory effect, and we absolutely stand up 
against that.
    To your question about vote-by-mail ballots that were 
rejected in our primary, I will tell you that the lion's share 
of those were ballots that were either postmarked after the 
primary election or arrived very late, beyond our postmark-
plus-3 law in California--all the more reason to extend our 
postmark-plus-3 to postmark-plus-17 for the November general 
election so more ballots can and will be counted.
    You know, if we are worried about some of the effects of 
people----
    The Chairperson. The gentleman's time has expired, so if 
you could very quickly wrap up----
    Mr. Padilla. Sure.
    The Chairperson [continuing]. Mr. Secretary.
    Mr. Padilla. So if we are really concerned about, you know, 
the unfortunate disenfranchisement of so many eligible 
citizens, then we should fully fund the U.S. Postal Service and 
we should fully fund elections.
    The Chairperson. Thank you very much.
    Mr. Raskin, the gentleman from Maryland, is now recognized 
for five minutes.
    Mr. Raskin. Madam Chair, thank you very much.
    And I am actually greatly reassured by the testimony from 
our secretaries of State and these election officials that we 
are ready to go and we should stop spreading anxiety and 
disinformation about the elections.
    I confess that I am a little bit baffled by my friend, the 
Ranking Member's indignant complaint about the Democratic 
secretaries of State's completely unexceptional TV 
advertisement about White supremacy being both a political 
ideology and a strategy for maintaining power. One would think 
that the whole history of disenfranchisement in our country, 
with poll taxes, literacy tests, grandfather clauses, White 
primaries, and so on, would vindicate the accuracy and the 
passion of that ad.
    And, indeed, when the gentleman repeatedly invokes ``over-
the-top rhetoric,'' I don't know what he is referring to. But 
it strikes me as over-the-top rhetoric to link this ad, 
presumably made over the last several months--I don't know; 
maybe the secretary from California could tell us--but linking 
that ad to the violent assault on our colleagues on June 4, 
2017, something that took place 3 years ago, that strikes me as 
true over-the-top rhetoric.
    In any event, we face two key obstacles today, as Secretary 
Padilla puts it. One is COVID-19; the other is the continuing 
disinformation about voting which is scaring people and 
confusing people. And there is this incessant stream of 
propaganda from the highest levels of government trying to 
scare people about different forms of voting.
    Now, I want to focus on ballot drop boxes, because they are 
one of the ways that the States are working to address all of 
the problems caused by COVID-19, which, of course, has 
afflicted more than five million of our people and killed more 
than 180,000 of them.
    At least 34 States and the District of Columbia have used 
or plan to use ballot drop boxes this year, including my home 
State of Maryland. The President recently attacked ballot drop 
boxes via Twitter, claiming that ballot drop boxes are a voter 
security disaster that will facilitate fraud.
    So I wanted to come to Secretary of State Wise, if I 
could--or, I am sorry, you are not secretary of State, you are 
an election official. Ms. Wise, you say that in King County you 
have been using ballot drop boxes for years without any 
problems. Is that right? Can you explain how secure they are? 
What are the benefits of drop boxes? And then, also, how did a 
school bus hit a drop box, and how did the drop box survive and 
the school bus not make it?
    Ms. Wise. We have had drop boxes since we moved to vote-by-
mail about 10 years ago. So we went from--when I was first 
elected, we had 10; we now have 70. That means 96 percent of 
our voters in King County have a drop box within just a three-
mile radius of their home. And we have seen studies out of the 
University of Washington that proximity to a drop box increases 
turnout.
    So drop boxes are incredibly important. They served a 
really important service, especially when we didn't have 
prepaid postage, but now that I have secured prepaid postage, 
voters really have both options.
    These are secure drop boxes. These drop boxes are, in fact, 
manufactured by a company called Vote Armor. And more than half 
of our voters use our drop boxes. And they come in really handy 
for our voters that maybe want to wait until election day, a 
little bit more of our procrastinators. And so, election day 
and the day before, in fact, we see 50 percent of voters turn 
out to those drop boxes. They are securely designed, 1,000-
pound boxes.
    We had the opportunity to host students at our facility. We 
have 99,000 square feet where we process our ballots. And so we 
hosted about 700 students, not at the same time. But that is 
why the school bus was on site, was to bring the students. And 
the driver just mistook the turn, crashed into the drop box. 
The drop box was completely fine, and the bus didn't look so 
great.
    Mr. Raskin. Well, I hope all the kids were okay, but that 
is a great advertisement for drop boxes and their sturdiness 
and their reliability.
    You also testify, Ms. Wise, that Washington is one of the 
five States, I think it is, that have conducted universal vote-
by-mail elections, which is another target of the President, 
who says that vote-by-mail promotes fraud, it is not 
trustworthy, et cetera, et cetera.
    Has your State seen any significant increase in the 
incidence of voter fraud because they are doing universal vote-
by-mail? And what do you think of the President's continuing 
attacks on States like yours?
    Ms. Wise. There hasn't been cases of fraud. In my 
testimony, as I said, the percentage rate of fraud happening--
and this is when King County compared our data in ERIC to 30 
other States in which those voters were registered. There is 
not fraud happening.
    Mr. Raskin. And you just said it was 1-100,000th of 1 
percent.
    Ms. Wise. That is correct. That is accurate.
    Mr. Raskin. So what do you make of this attack on universal 
vote-by-mail?
    The Chairperson. The gentleman's time has expired, so if 
you could answer promptly, that would be wonderful.
    Ms. Wise. In Washington State, we are all permanent 
absentee voters. If you want to call it universal mail-in or 
whatever you want to call it, it is same thing as permanent 
absentee voters. When a voter signs up in Washington State, 
they are signing up to be a permanent absentee voter.
    Mr. Raskin. Thank you very much.
    I yield back, Madam Chair.
    The Chairperson. Thank you so much.
    The gentlelady from California, Mrs. Davis, is recognized 
for five minutes.
    Mrs. Davis of California. Thank you very much, Madam Chair.
    And thank you to all of our witnesses here today. I 
appreciate your joining us.
    Now, one of the best but least known components of a good 
absentee ballot system is ballot tracking, which lets voters be 
able to tell online whether their ballots have been sent out, 
whether they have been received back, and whether their votes 
have counted.
    And I put language into the defense bill some years ago to 
require ballot tracking for the military and overseas voters. 
And my hope is that elections officials would open up to that 
for all voters, as many of them have.
    But I am concerned that most voters are unaware that they 
can track their ballots. Many registrars don't seem to do 
enough to let voters know about it, and it is buried on some of 
their websites. And so a lot of voters truly don't know about 
this service.
    Mr. Padilla, Mr. Secretary, I know that you have been 
working on this. Can you tell us how you promote Where's My 
Ballot? And have you had secretaries of State look to you to 
help them to be able to do this as well? Is it too late for 
them to do that? You know, what is the--not in detail, the 
procedure, but how can they afford themselves again of 
providing this service to voters?
    Mr. Padilla. Right. No, I appreciate the question.
    And so I should say, we, I don't believe, are the first 
State to expand statewide. Colorado might be the first State to 
have done it statewide. We have had ballot tracking prior in 
California. We had about 28 counties participate in the primary 
election. Voters in those counties had a great experience. But 
for purposes of November, we are expanding and mandating it 
statewide.
    This will always be counties [inaudible] voter education 
campaign about ballot [inaudible]. So I think we are off to a 
great start. [Inaudible] colleagues across the country, 
organized by the National Association of Secretaries of State, 
where we exchange these best practices and good ideas. And I 
know many others are looking at it [inaudible] county, we chose 
to invest some of the funding from the CARES Act and HAVA to 
underwrite the ballot tracking expansion statewide per county, 
so it didn't become a fiscal burden for individual counties.
    And, last, I just want to say, it is not just a great tool 
for voters, right--the transparency of your ballot moving its 
way through the mail delivery process, confirmation when it has 
been received and counted. Great for transparency for the 
voters, but it provides a great diagnostic tool, a dashboard 
for us to identify any bottlenecks or delays in the postal 
delivery. And so we can then work with regional or local postal 
officials to the make sure those ballots are delivered on a 
timely basis.
    Mrs. Davis of California. Thank you.
    I wonder if, Ms. Wise, Ms. McReynolds, if you would like to 
comment as well, particularly on that and really making it more 
prevalent and, again, giving voters the confidence that they 
can check this information.
    Ms. McReynolds. Yes, I am happy to weigh in for a second.
    Actually, Denver was the first pioneering office for ballot 
tracking, now, back in 2009, so 11 years ago that we created 
that. And then there is a commercial provider, and there is 
also a nonprofit provider, and then some States have built 
tools in-house. So over 30 States actually offer tracking on 
their websites.
    And there are actually still States right now that I have 
been working with to expand and implement ballot tracking like 
what California has done statewide for this election. So the 
window is closing, but there is absolutely time to do that. I 
have been working with various States to try to get that 
implemented and set up now. And, you know, a lot of States are 
in the process of trying to do that now.
    And, certainly, voters knowing about it is critical. And 
there is lots of ways to do that, through a voter education 
campaign or even, in a lot of States, when you register to 
vote, you can actually select the option to get electronic 
information about voting from the election officials. And so 
you can basically opt in at that point in the registration 
process in various States as well.
    Mrs. Davis of California. Thank you. I appreciate that. And 
yet it feels as if there are a lot more people who could be 
doing it than are. So we have to do a better job of that. I 
appreciate it.
    Secretary Padilla, I want to just give you an opportunity 
very quickly to respond a little bit, because the fact that you 
are sending ballots to every voter in California somehow seems 
suspect, and I wonder if you could just respond to that, that, 
you know, it opens the door to more fraud, if you would like to 
do that.
    Mr. Padilla. Sure. No, I appreciate it, and I will try to 
be concise.
    You know, vote-by-mail is nothing new in California and for 
many other States across the country. California is not the 
only one. No-excuse vote-by-mail, specifically, has been in 
place in California for a couple of decades.
    So vote-by-mail is absolutely convenient for voters. It has 
proven to be secure as well. You know, among the security 
measures that we have in place, starting with the ballots 
themselves, it is not quite like currency, but think specific 
paper types, watermarks, other distinguishing features of 
ballots. So it would be pretty darn hard to introduce fake 
ballots into the system. The alarm bells would go off almost 
immediately.
    Second, vote-by-mail ballots must be returned in the 
official envelope provided to the voter, each with a unique 
barcode for tracking purposes not just through the mail but for 
maintaining the voter's record of when somebody has voted to 
help guard against double voting.
    The all-important signature verification. When the voter 
returns their ballot, they must sign the back of the return 
envelope. And the first thing county officials do is check that 
signature against the signature on file as part of that voter's 
record to help confirm the identity of the voter. If the voter 
forgot to sign the envelope or the signatures do not match, 
California law requires counties to attempt to contact the 
voter to rectify any signature issues. Because we want to make 
sure a legitimate vote is counted. And if the voter says, hey, 
that wasn't me, well, then, obviously, we have something to 
look into. So----
    Mrs. Davis of California. If I could interrupt, sometimes 
people are afraid that the voter is deceased and, somehow or 
other, someone is going to get that----
    Mr. Padilla. Sure. So, on list maintenance, you know, 
county officials work constantly to maintain the accuracy of 
their rolls. They cross-reference coroner's data, for example, 
to identify deceased individuals to remove them from the rolls. 
In California, they also check----
    The Chairperson. The gentlelady's time expired, but I am 
going to go back to you when it is my turn, Secretary Padilla, 
to finish this.
    Mr. Padilla. Okay.
    The Chairperson. I would like to recognize the gentleman 
from North Carolina, Mr. Butterfield, at this point for five 
minutes.
    Mr. Butterfield. Thank you very much, Madam Chair, for 
convening this very important hearing this afternoon. It is 
Friday afternoon here on the East Coast. And I did not want to 
put on a necktie, but I did it, and I am reporting for duty. 
Thank you so very much.
    To my friend, the Ranking Member, thank you for playing 
that video a few minutes ago. I want to associate myself 
totally not with your comments, but I wanted to associate 
myself with the content of the video. You touted the benefit of 
the Voting Rights Act in your remarks, but you must understand 
that the Voting Rights Act is not fully enforceable now. It has 
been wounded, and your party refuses to fix it. But I just 
wanted to set the record straight that I, for one, associate 
myself with the video.
    Thank you, Madam Chair, for taking a moment to recognize 
this important day in American history. I recall this day 57 
years ago; oh, do I recall it so very well. I was 16 years of 
age, and my dad rounded up my best friend and me and put us in 
the car and drove us to Washington, D.C., through the night. I 
remember it so well. And thank you for making reference to 
that.
    Like many Americans, I have been watching the political 
conventions over the last 2 weeks, the Democratic convention 
last week and the Republican convention this week. And during 
each one of these conventions, many of the speakers said that 
this was the most consequential election of our lifetime. And 
they are so right. This election will determine--it well 
determine whether we will have a democracy, and it will 
determine, quite frankly, whether we have a President that 
follows the rule of law.
    I was very, very disappointed last evening to see President 
Trump use the precious real estate of the White House as a 
political backdrop for his reelection. Not only was it 
inappropriate to have this event at the White House, but it 
violated the Hatch Act and it violated CDC guidelines for 
protecting the public health.
    And, you know, I was reading this morning, it was reported 
that some of the delegates at the Charlotte convention now have 
COVID. And let's pray that those attending last night will not 
find themselves or their neighbors affected by the virus.
    But this hearing is important. It is incredibly important. 
As Ms. Gupta said early on in her opening remarks, we must have 
a safe, fair, and accessible election.
    So let me just ask one or two questions of Ms. Gupta, and 
then I will yield back.
    But, Ms. Gupta, I remember when you were at the Department 
of Justice, and thank you for your years of service, and wish 
you were back at the Department of Justice. And I will just 
leave it there. Thank you so very much.
    Ms. Gupta, at the recent Senate and House hearings on 
operational changes at the Postal Service, the Postmaster noted 
several times that the sorting machines that were removed from 
the post offices were not needed, and he refused to agree to 
their reinstatement. He also refused to make the commitment 
that election mail will be treated as first-class mail, 
although this is an accepted practice.
    Ms. Gupta, what is the potential impact of the Postal 
Service removing sorting and mailbox equipment and not treating 
election mail as first-class mail for voters during the 
upcoming election?
    Ms. Gupta. Thank you, sir, for the question.
    Six-hundred-and-seventy-one mail sorting machines were 
removed from 49 States in the last few months under Postmaster 
General DeJoy's leadership. And every sorting machine actually 
has the ability to process about 30,000 pieces of mail per 
hour. And so the refusal to restore them really gets to some of 
the functionality of a system that Americans rely on and are 
going to rely on now more than ever amid a pandemic, where 
surges of Americans will be voting by mail to protect our 
public health.
    And so there is a lot of concern that if the decommissioned 
machines and mailboxes are not restored that it could really 
undermine or slow down the system for voting by mail. It also 
has the potential to confuse voters, to add to disinformation.
    And so this is why there has been such an urgency to get 
these post mailboxes restored. You know, voters need to have 
confidence in the vote. There is also--there are the policy 
changes, and then there is the confidence that voters need. And 
amid so much disinformation, voters need to feel like the U.S. 
Postal Service is going to be a reliable service to vote by 
mail.
    On the first-class-mail piece of this, it is really 
critical that vote-by-mail ballots are treated as first-class 
mail and have expedited priority. First-class mail moves 
significantly faster than marketing mail. And in the past 
years, it has been a courtesy that USPS has often treated 
election mail as first-class mail.
    And so it is critical that Postmaster General DeJoy issue a 
formal policy. He gave some verbal commitment to treating some 
mail-in ballots this way, but there is a need to formalize this 
policy, which is why the bill that the House passed this past 
weekend really needs become law so that----
    Mr. Butterfield. Thank you.
    Ms. Gupta [continuing]. Voters can have the confidence that 
this will be the case nationwide.
    Mr. Butterfield. Thank you. Thank you very much.
    I yield back.
    The Chairperson. Thank you so much.
    The gentleman yields back.
    I would now like to recognize the gentlelady from Ohio, the 
chairperson of our Elections Subcommittee, Congresswoman Fudge.
    Ms. Fudge. Thank you very much, Madam Chair. I appreciate 
it.
    I really don't have any questions, but I would just tell 
you, I listened to the Ranking Member, who was so typically 
misleading. The bill that we put in the HEROES Act does not 
require, does not request universal vote-by-mail. And he knows 
it. What it does is give people options so that they can be 
safe when they decide to go out and vote. He knows that. I 
don't know why he continues to say it.
    We have a President that votes by mail and then tells the 
American people that they should not. It is no wonder to me 
that we have destroyed the confidence in every single 
institution in this country. People have lost faith in 
government. They don't believe in the President, the Senate, 
the House, nothing. Now we can't even believe in the Postal 
Service, a place where my uncle worked for 42 years. I have two 
postmasters in my family, and they are appalled by what they 
are seeing today.
    The post office was a place where, when we came out of 
school, back when my uncle was coming out of college, you 
couldn't get a job anyplace else, so they carried the mail. He 
carried mail for 42 years. And it takes DeJoy and this group to 
destroy it.
    It is just amazing to me that we talk about wanting to 
believe in the Constitution, that everybody has a right to 
vote, but day after day they put up roadblock after roadblock. 
It is just lip service. They really don't want everybody to 
vote, because if they did, they would try to make it easier and 
not harder.
    He asked someone about their purging or their voter rolls. 
The last purge we had--and to the credit of my Republican 
Secretary of State, he reached out to places like the NAACP, 
the Urban League, churches, et cetera. He found 50,000 people 
in one week that should never have been purged--in one week. So 
we know that what they do is not perfect.
    And today--and I hope Mr. Davis reads this--today, our 
Secretary of State published a list of 116,000 people who are 
going to be purged after the November election to make sure 
that they have an opportunity to save their registration. That 
is what we ought to be doing, instead of trying to tear down 
everything that is good in this country, which is what they 
want to do, because they figure, if we make it difficult and we 
just let people stay at home, they won't vote and we will win.
    You know, he keeps talking about bipartisanship. There is 
no bipartisanship with these people. You know, it just gets to 
be, you know, always talking about things like fraud. The only 
fraud is that they want people to believe that they care about 
our vote. They don't.
    It is just disheartening to me that, at this time when 
people are dealing with so much, when they have lost their 
jobs, when they can't get their unemployment insurance, when 
their kids are hungry and they don't know if they can go to 
school, that we are playing these games instead of making it 
easy for people to go to the polls.
    And now people are wondering, if they go to the polls, if 
they vote by mail, if their vote will even count. I mean, I 
don't know any handwriting experts that work at these boards of 
elections. My signature is different now than it was at 18 when 
I first registered to vote. It is not going to be an exact 
match.
    And so they play all of these games.
    So, Madam Chair, I really don't have any questions. I just 
want to say, let's stop the charade. Just admit you don't want 
people to vote, just admit that you don't care, and it will be 
better, because at least people will know how honest you are.
    I yield back.
    The Chairperson. The gentlelady yields back.
    The gentleman from California, Mr. Aguilar, is now 
recognized for five minutes.
    Mr. Aguilar. Thank you, Chair Lofgren.
    And I share the frustration that my colleague, Chair Fudge, 
had with some of the statements that we have heard.
    Secretary Padilla, on election night, Americans are used to 
hearing about projected winners, especially on the night of the 
election. But what some voters may not know are that those 
projections are based off of unofficial results that often take 
time to line up with the eventual certified results. And 
certifying results takes time in each jurisdiction, and each 
State sets requirements for that.
    Can you discuss the process for canvassing and certifying 
an election in California and why in some cases it takes more 
time to ensure that the official results are accurate?
    Mr. Padilla. Certainly. And I appreciate the question 
because it is important for us to set the expectations now, 
both with the press and with the public, of what election night 
may be like.
    I think California has developed a reputation for taking a 
little while to finish counting ballots and certifying results, 
but it is all for a good reason. In California, we are unique, 
just the size of our electorate. You know, we are approaching 
21 million voters on the rolls. So the sheer volume takes 
longer than in many other States with much smaller populations.
    But some of the policies that we have in place, starting 
with vote-by-mail--you know, I mentioned in my testimony that 
we have extended now the postmark-plus-3 policy to postmark-
plus-17 for purposes of this November. So, come election day, 
we won't even have all the ballots in hand to finish counting. 
It is going to take days, if not weeks, depending on the health 
of the Postal Service, for ballots to arrive in county 
elections offices.
    When the polls close at 8 o'clock in California, we start 
hearing some numbers. Those are votes that came in early enough 
to county elections offices so they can be prepared and 
processed and ready to be counted, and we start providing 
preliminary results.
    The overall experience is that we have a decent sense of 
the outcome of most contests on election night, but for close 
contests and for final results, it does take weeks. Because in 
that canvass period that you reference, Congressman, we have 
the signature verification process that is happening.
    California is one of the States that offers same-day 
registration opportunity, where we have to process the 
registration before we count the ballots. If there is a need 
for a voter to cast a provisional ballot because of some issue 
when they tried to vote in person that is a manual process that 
also takes a few minutes. We go through these lengths to 
preserve both the integrity of the election and the right to 
vote for every eligible citizen.
    And let's not forget the required post-election audits that 
are required of every county after every election. In 
California, counties have a month after the election to certify 
their results, and then my office takes another week to certify 
statewide results.
    The issue for this November is with so many other States 
ramping up vote-by-mail significantly, possibly for the first 
time. You know, think Michigan and Pennsylvania and Ohio, 
Arizona, and others. If the Presidential contest is too close 
to call on election night in enough key States, we may not know 
the final outcome for at least a few days.
    And our worry, going back to the disinformation that I 
spoke of during my testimony, is we are going to be hearing, 
you know, a lot of conspiracy theories and lies during that 
timeframe that threaten to undermine confidence in our 
elections.
    The public and the press need to understand this is simply 
the process at work. It is maintaining the integrity of the 
process. And it is better to be patient. We want to get the 
vote count right, not rush to get it fast.
    Mr. Aguilar. Yeah. And it is important to set those 
expectations now, and I appreciate it.
    For the life of me, I just can't understand why the Ranking 
Member spends so much time devoted to California elections laws 
and spreading his own misinformation about our processes. Maybe 
he wants to move to California. You know, that is something 
that is available to him as a private citizen in the future.
    On August 20--and this will go to Secretary of State 
Padilla and Director Wise--the President mentioned that he 
might send sheriffs, law enforcement, and attorneys general to 
in-person voting locations. Days later, the Acting Secretary of 
Homeland Security, Chad Wolf, stated that his department lacks 
the authority to police polling stations.
    Can you explain how the use of law enforcement at in-person 
voting locations could affect turnout, as well as other issues 
and concerns you see with this possible course of action, 
Secretary of State Padilla and then Director Wise?
    Mr. Padilla. Sure. And I will try to be brief.
    Look, even before I get to the law enforcement question, 
President Trump has been publicly honest about why he is trying 
to undermine the Postal Service and vote-by-mail: He is trying 
to stop vote-by-mail.
    More recently, he has threatened to send law enforcement 
officials to monitor polling locations. By the way, both of 
those actions violate California law. So I want to make that 
absolutely clear.
    But if you look at attacks on vote-by-mail, he is trying to 
make vote-by-mail harder, forcing people to vote in person; now 
the presence of law enforcement, which is against the law, 
would only serve to intimidate people trying to vote in person. 
Put those two together, it is nothing but a recipe to try to 
suppress the vote, plain and simple.
    The Chairperson. The gentleman's time has expired, but, Ms. 
Wise, if you could very briefly respond. And then I will go to 
my five minutes.
    Ms. Wise. You know, we have political party observers for 
both parties at our drop boxes as well as where we are 
processing ballots on hand. There is no need to have additional 
observation, if that is what is needed. We don't need any more 
people there at the drop boxes and vote centers. As we really 
try to service our voters, our voters in Washington State can 
also register all the way up to an election day.
    So we have the security that we need on site, and we are 
prepared to handle our voters. And anything else to that would 
really cause intimidation, concern for election administrators 
as a civil servant and to our voters.
    The Chairperson. Thank you very much.
    I----
    Mr. Davis of Illinois. Madam Chair? I didn't want to 
interrupt the witnesses, but I have a couple points of order to 
raise.
    The Chairperson. I am sorry?
    Mr. Davis of Illinois. I didn't want to interrupt the 
witnesses, but I have a couple points of order to raise.
    First off, I notice that some of our colleagues are not 
following the rules you laid out to stay on video and keep 
their video open. So I would appreciate that reminder going out 
again. These are the videoconferencing rules that were passed 
and put into place.
    The second point of order, I would go back to the partisan 
performance of my colleague, Ms. Fudge, who mentioned that I 
want to allow people not--clearly, my opening statement stated 
I want to stop disenfranchisement, the unfair attacks----
    The Chairperson. Mr. Davis----
    Mr. Davis of Illinois [continuing]. People of color----
    The Chairperson. Mr. Davis, that is not a point of order. 
But you will have----
    Mr. Davis of Illinois [continuing]. And the partisanship is 
coming from----
    The Chairperson. You will have an opportunity to make an 
additional statement when it is your turn.
    The chair now recognizes myself for my five minutes of 
questions, and you will be heard after that, Mr. Davis.
    I promised, Mr. Padilla, to go back to you to let you 
finish the explanation of how sending ballots to every 
registered voter is secure. If you could briefly finish 
addressing that issue, I would appreciate it.
    Mr. Padilla. Sure. I think I was in the middle of talking 
about some of the list maintenance that every county elections 
office does to maintain the accuracy of the rolls as best as 
possible--you know, cross-referencing with coroners records, 
for example, to remove deceased individuals from the voter 
rolls. In California, individuals in State prison or on parole 
for a felony conviction lose the ability to vote until their 
time served is done, and so they cross-reference with our 
Department of Corrections and Rehabilitation to search for 
names as well.
    You know, here is a bright spot in automatic voter 
registration in California. Since the launch of the program, 
yes, more than two million previously eligible but unregistered 
Californians now added to the rolls. Another roughly five 
million individuals that have previously registered were able 
to update their registration, again, leading to more accurate 
rolls. And maybe close to five million individuals that were 
afforded the opportunity to update, confirm their record is 
accurate. And that is just the transactions through the DMV. So 
a great chunk of our current electorate that has recently 
updated or confirmed the accuracy of their information.
    We talked about the ballot tracking tool earlier. We have 
another tool online for voters to verify their registration 
status. That is also a core element to our voter outreach 
campaign between now and election day, encouraging people to go 
online and verify their registration, including their address, 
so that, before county elections officials mail those ballots 
out, we know we are sending them to the current address.
    And, in the interest of time, I will just acknowledge, 
prior in the conversation, I mentioned some of the various 
safeguards to confirm the integrity of those vote-by-mail 
ballots when they come in--signature verification, et cetera.
    The Chairperson. Thank you very much.
    Ms. Wise, would you address how Washington makes sure that 
there is security in these mailed-in ballots?
    Ms. Wise. Washington State also does signature verification 
of each of our voters. I can attest, myself, I have been 
challenged twice for my signature changing over the years. And 
so, if a signature starts to change, we are proactive in 
reaching out to those voters. But in vote-by-mail, that is how 
you ensure that the voter voted their ballot and no one else 
did.
    But as Secretary Padilla already said, we do a lot of list 
maintenance here in Washington State, between doing felony 
checks with courts or Social Security Administration or Public 
Health, we are constantly scrubbing those voter rolls to make 
sure that they are up to date and that they are accurate.
    We are mailing ballots out in Washington State to all of 
our voters at least twice a year, which also keeps our voter 
rolls up to date and accurate.
    These are secure elections that we have been doing, again, 
for over a decade in Washington State.
    The Chairperson. Thank you very much.
    I would just like to talk again about how long it takes. In 
2018, Speaker Ryan was complaining about how long it took for 
the vote to be counted in California. Now, obviously, if we are 
accepting ballots that were postmarked on election day or prior 
for 17 days after the election, we are not even going to have 
all the ballots in hand on election day.
    What percentage do we think, Secretary Padilla, will be 
votes by mail?
    And I have to note that both parties have observers at all 
of the registrar of voters' offices, and not a single complaint 
was filed in 2018. No complaint was filed, because there was no 
problem, even though people were complaining here in 
Washington.
    Can you address that issue? What percentage of the votes 
will not even be in hand on election day?
    Mr. Padilla. So, I mean, it is tough to really ballpark, 
but it wouldn't be surprising if half the ballots or half the 
votes weren't in hand when the polls close on election night 
because of the volume that comes in by mail so close to 
election day.
    You know, I mentioned one marker during my testimony, that, 
for the March primary, 72 percent of ballots cast were vote-by-
mail ballots, the majority of those coming in by mail, a 
significant chunk also coming in through drop boxes, and a 
growing number of people who choose to receive their ballot by 
mail, filling it out at home at their leisure, and then 
dropping them off in person. So I wouldn't be surprised if that 
72-percent mark goes up to 80 percent, closer to 90 percent.
    The Chairperson. Okay.
    My time has expired, and so I will turn now to the Ranking 
Member for his five minutes on the second round.
    You are recognized, Mr. Davis.
    Mr. Davis of Illinois. Thank you, Madam Chair.
    I am glad the witnesses and the people watching on C-SPAN 
get to see why I always say at almost every hearing, the 
biggest threat to our election process and election security is 
partisanship. It is very disappointing. We had a couple of 
colleagues actually talk about being more partisan. I am the 
13th most bipartisan Member of Congress, according to The Lugar 
Center. I will compare with almost all of my colleagues about 
how to work together.
    It is disappointing, though, that we also see--it is a lot 
of talk about accuracy when it comes to the election process 
and inaccuracy on this hearing from some of my colleagues.
    The HEROES Act clearly states that if there is an emergency 
declaration in order, that all voters on every registration 
roll would get a ballot mailed to them. That is the bill that 
was passed. That is what it says. I am not making things up.
    I am very disappointed that some my colleagues today have 
decided to actually be encouraged by the hateful rhetoric that 
we see in our political environment today. That is the 
partisanship that I am talking about. That is the type of 
rhetoric that allowed my friends to get shot on a baseball 
field--it is wrong--by somebody who was screaming 
``healthcare'' while they were firing.
    And you talk about no fraud? We didn't seat an elected 
Member of Congress because of ballot-harvesting fraud in North 
Carolina's Ninth District.
    I just--it is like Groundhog Day, and every single hearing 
is the same thing, and it gets frustrating.
    And I am sorry to the witnesses, but, Mr. Palmer, I have a 
question for you. You know, we want to make sure that every 
lawful vote is counted this November and people can vote safely 
and securely.
    The EAC has put out, on a bipartisan basis, the suggested 
timeline for when States can move to vote-by-mail. Can you 
briefly explain why it takes a long time to move to vote-by-
mail? And very briefly, please, because I have some more 
questions.
    Mr. Palmer. Sure. In our discussions, it is a significant 
transition, and most of the leaders [inaudible] universal vote-
by-mail [inaudible] a significant absentee or permanent 
absentee, you know, category of individuals who are voting that 
way.
    Most of the States in the country, a majority at least, 
have less than 10-percent absentee vote--voters that vote by 
absentee. It takes time for voters to get used to voting by 
mail and being accustomed to the Postal Service transmission. 
That is why often the lockboxes become important. But I think 
that we found that, after COVID discussions, that we needed to 
prepare for increased absentee and mail voting, not necessarily 
wholesale transitions to all-vote-by-mail systems.
    Mr. Davis of Illinois. Thank you.
    Mr. Palmer. That would be----
    Mr. Davis of Illinois. I have to move on, Don. I apologize.
    I want to get back to the question that I asked Secretary 
Padilla.
    You know, the Election Integrity Project found over 450,000 
California registrants on your voter rolls are likely deceased 
or have moved out of State.
    Since you received this letter last April, can you tell us 
approximately how many of these 450,000-plus registrants you 
have removed that would get a ballot mailed to them if the 
provisions in the HEROES Act were implemented because we are in 
a national emergency?
    Mr. Padilla. So, again, I don't have precise numbers for 
you, but rest assured we are working with each and every county 
to perform the ongoing list maintenance.
    Several counties, including Los Angeles County, which was a 
big focus of that effort, has recently, for example, sent 
mailers to every active registered voter in an attempt to 
identify those that may no longer be at their address and to 
verify the address of those who are.
    And, ultimately, even if a ballot goes to somebody who 
might have moved, it doesn't mean that ballot is being cast. We 
have the security measures that I have articulated already that 
would prevent a fraudulent ballot from being cast by mail.
    Voter fraud is exceedingly, exceedingly rare, so the 
current safeguards are working.
    Mr. Davis of Illinois. Mr. Secretary, it was not rare 
enough to not seat a Member of Congress in one of our 
elections.
    Mr. Padilla. That was North Carolina, sir, not California.
    Mr. Davis of Illinois. I agree, but it is the same 
harvesting process. And we have to make sure they are----
    Mr. Padilla. So let me address that, because you have 
brought it up a few times. So here----
    Mr. Davis of Illinois. I have to move----
    Mr. Padilla [continuing]. Is the law in California----
    Mr. Davis of Illinois [continuing]. Almost out of time.
    And we just mentioned earlier, unfortunately, that the NVRA 
is not being followed. That is the law too, sir. That is why I 
question California so much, because there are too many 
questions about what laws you want to follow and what laws you 
actually do.
    That is a process that we can--I certainly would have liked 
to have met with you during the NASS conferences we requested. 
We did not get a response from your team. I offer again, I 
would love to sit down with you on an extended basis to have a 
meeting and talk about these issues, because 10 minutes in a 
partisan hearing clearly is not enough for me to get the 
answers and for you to actually get the answers out of me that 
you would like.
    So thank you, sir.
    I appreciate everybody's time today. Disappointed in the 
rhetoric once again. But I look forward to working with our 
witnesses in the future.
    The Chairperson. The gentleman's time has expired.
    The gentleman from Maryland, Mr. Raskin, is now recognized 
for five minutes.
    Mr. Raskin. Chair, thank you very much.
    Well, I suppose, then, the disappointment is mutual on our 
two sides about the rhetoric. My friend Mr. Davis says that the 
biggest threat to elections is partisanship. But, you know, I 
started to think about that, because, of course, partisanship 
is a reflection of a free society. Under the First Amendment, 
people can form political parties, and then we have partisan 
competition. That alternative to that is a one-party state, a 
dictatorship, an authoritarian state, you know, some kind of 
strongman, Putin in Russia or Orban in Hungary or any of the 
other friends of Donald Trump around the world. I guess a one-
party state would get rid of the problem of partisanship.
    The problem is partisanship invading the electoral system. 
So that is like, you know, Katherine Harris in Florida in 2000, 
when she was both the chair of the Bush campaign and also the 
head of the elections. That is certainly something we have to 
deal with through the system of federalism, where the States 
have moved away from partisan brawlers running elections and, 
instead, trying to move towards independent, nonpartisan 
administration of our elections.
    But, of course, the leading partisan in this electoral 
process is Donald Trump, who calls ballot drop boxes a voter 
security disaster, who said he wants to get rid of all the 
ballot harvesting in a tweet, and then we learned that he gave 
his ballot to a third party to go and mail. And then his 
incessant attack on the post office, where he opposed what we 
passed in the HEROES Act, and he said, on national TV, ``They 
want $25 billion for the post office. Now they need that money 
in order to make the post office work so it can take all of 
these millions and millions of ballots.'' It could not be 
clearer that that is partisan sabotage of our ability to have a 
free and fair election in the United States of America in 2020.
    I would like to ask some of our guests who have come from 
around the country: The partisanship is obvious, coming from 
Donald Trump and his sycophants, but isn't this also an attack 
on federalism? When he attacks what Washington State is doing 
in terms of its drop-off boxes or its direct mail-in voting, 
when they attack California or North Carolina or--any State 
where they think the people are going to vote against Donald 
Trump, they attack the electoral system. Isn't that a serious 
threat to federalism?
    And I would like to ask Ms. Wise and Secretary Padilla 
about that.
    Ms. Wise. I am a nonpartisan election official that has 
appreciated running elections in a nonpartisan way for our 
voters in Washington State and for King County. And I think 
that what I do know is that voters deeply appreciate the 
opportunity to vote by mail.
    One of the things that worries me is, if we talk about 
rejection rates, how do you account for how many people stopped 
waiting in line after six hours? I believe it is people's 
fundamental right to have their ballot wherever they want it. 
If that is by mail or if that is at a vote center, we need to 
provide an opportunity for our voters.
    So, as a nonpartisan election official who has dedicated 
half of my entire life to running elections, I am saddened to 
see us politicize administrative tasks like postal worker--my 
grandmother was also a postal worker--and election 
administration and to demonize election workers. We are civil 
servants, a lot of us nonpartisan, just trying to do the good 
work to make sure that our voters can have their voice heard.
    We fundamentally believe that democracy at its finest is 
when all voices are heard. And how you do that is you remove 
barriers, therefore increasing access. But I question, how many 
people do we lose when we make them stand in line, when they 
have to go to the right place out of 700 places?
    Mr. Raskin. Yeah, I appreciate that very much.
    And there are those who clearly want to blame the messenger 
if the election officials bring back a result that is untowards 
them. For the first time in American history, we have a 
President who is saying, I am not going to necessarily follow 
the results, and people are questioning whether he is actually 
going to leave office. I mean, this is a deranged situation 
that we are in.
    Secretary Padilla, what about you? Do you interpret this as 
an offense against federalism, to be questioning all the State 
election officials, the secretaries of State, about balloting 
processes that have evolved over the decades towards greater 
inclusion?
    Mr. Padilla. Look, I think it is both offensive and 
insulting, not just to State elections officials but to local 
elections officials across the country, like Ms. Wise, and the 
untold number of volunteers, people who sign up to work as poll 
workers to help administer our elections in person.
    In California, we believe in both election security and 
accessibility. It is not an either/or. And now we have to be 
worried about accessibility, security, and safety because of 
the COVID-19 pandemic.
    Voter enfranchisement is not voter fraud. You know, it has 
come up a couple times, so I want to talk about the options for 
how these ballots come back in. In California, we----
    The Chairperson. The gentleman's time has expired, so I 
will give you an opportunity to talk about that when it is my 
turn.
    And the gentlelady from California is recognized for five 
minutes.
    Mrs. Davis of California. Thank you, Madam Chair.
    And, Madam Chair, before I ask a question, I just wanted to 
ask unanimous consent to enter into the record the Science 
Advances study dated August 26, 2020, by Michael Barber and 
John Holbein.
    The Chairperson. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       Mrs. Davis of California. Okay.
    And I ask unanimous consent to enter into the record the 
article from Politico dated August 26, ``Intel Officials 
Contradict Trump on Voting By Mail.''
    The Chairperson. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mrs. Davis of California. Thank you very much.
    I wanted to ask Ms. McReynolds: Several excuse States--
those who require any number of excuses, as we know, from 
people, including whether or not you are pregnant, by the way--
have changed their rules to allow a one-time exemption, so the 
concern about COVID counts as an allowable reason to request an 
absentee ballot. And this, of course, is better than nothing 
but certainly no substitute for eliminating excuses entirely.
    Do you think those voters in those States are aware that 
they can now vote by mail by virtue of the fact that COVID is a 
concern and a fear that they might have? Do you think that they 
are aware? And how can we best educate them and make sure the 
excuse situations run smoothly? Have you actually seen whether 
there is a big attempt to do that in these excuse communities, 
in excuse States and counties?
    Ms. McReynolds. I appreciate the question. And I actually 
do--we have significant concerns about voter confusion in some 
of these States because of these changes and, frankly, because 
the States lack money to communicate and do voter outreach 
efforts to actually let voters know about that.
    Also, in, for instance, a State like Missouri, they have 
absentee voting, and there is one process for that, and that 
requires an excuse and some extra steps. And then they created 
a new process for what is called mail-in voting. And for mail-
in voting, you cannot drop off your ballot in person, but if 
you apply for an absentee ballot, you can. And so the Secretary 
of State yesterday announced that they are actually not going 
to roll out the boxes that they have actually purchased. So 
they literally have ballot boxes in storage that Missouri is 
not going to roll out.
    So, yes, I am very concerned about confusion, especially in 
the States with excuses and age limitations, like Texas. If you 
are over 65, it is one process; if you are under 65, it is 
another. And I think that that is extremely confusing to 
voters.
    Mrs. Davis of California. And maybe I will ask all the 
participants on the panel here whether they think that no 
excuse is the better way to go or if they think that those 
States that continue to have people actually be intimidated, in 
many cases, and maybe even choose not to vote as a result, that 
that is okay as well. I just wonder if everybody would weigh in 
on that really quickly.
    Mr. Padilla. I do. There is no reason for no-excuse vote-
by-mail to not be in effect nationally when the security 
measures show that it works. We maintain the integrity of the 
election, and we make it convenient and safe for voters.
    Mrs. Davis of California. Thank you.
    Ms. Gupta. I would say, Congresswoman, that, especially 
amid the global pandemic, it is more imperative now than ever 
that no-excuse absentee voting be made available in every 
State.
    And States that continue to erect barriers to this, it is 
hard to understand the rationale for it, given the experience 
without glitch in many other States that have been using this 
system for quite some time.
    Mrs. Davis of California. Thank you.
    Ms. McReynolds. And I would add, yes, at the very least, 
no-excuse should be available in every State. I, for one, came 
from a State where we had no-excuse and then we transitioned 
because of voters choosing this method of voting.
    I think that is a really important point here, is that this 
isn't politicians or people pushing this down people's throats. 
Voters themselves are opting in to vote this way across this 
country, and it is their choice. It is not anybody else's 
choice; it is the voters' choice.
    So I would take it a step further, based on my experience, 
that I think the models that, for instance, I was a part of 
creating in Colorado and then have happened elsewhere can take 
it to the next level. But, at least for right now, no-excuse is 
absolutely critical.
    Mrs. Davis of California. Thank you.
    Ms. Wise. Agreed, no-excuse across the country.
    Mrs. Davis of California. Uh-huh.
    And Mr. Palmer?
    The Chairperson. It looks like--Mr. Palmer, has your WiFi 
gone out?
    There you are.
    Mr. Palmer. Congresswoman Davis, can you hear me?
    Mrs. Davis of California. Yes I can. Thank you.
    Mr. Palmer. I looked like I got frozen.
    I think the majority of States are taking the no-excuse or 
excuse with COVID as the primary way to request a ballot. They 
see that as a secure method that they are comfortable with. And 
so you are going to see a lot of that in November.
    Mrs. Davis of California. Would you like to see no-excuse 
voting be more universal in our country?
    Mr. Palmer. I think I am very comfortable with no-excuse 
absentee or no-excuse mail. I think the primary reason, at 
least in the experience I had, was that that ability to request 
from the voter to an election official confirms the identity 
and address of the individual, and it gives a comfort level 
that a lot of legislatures and election officials are 
comfortable with across the country.
    Mrs. Davis of California. Thank you.
    The Chairperson. The gentlelady's time has expired.
    I would like to recognize the gentleman from North 
Carolina, Mr. Butterfield, for five minutes at this point.
    Mr. Butterfield. Thank you again to the chair for convening 
this hearing today. This is a very healthy discussion. I hope 
we have a lot of listeners and viewers, because this is a 
conversation that we must have.
    The Ranking Member was very vocal a few moments ago in 
talking about North Carolina, talking about the 2018 election 
in North Carolina Nine, and I am somewhat of an expert on that 
subject. The record should be clear, Madam Chair, the record 
should be absolutely clear that Congress didn't seat the so-
called winner in that election. Why? Because the board of 
elections didn't certify the election.
    The board found substantial election fraud by Republican 
operatives. Republican operatives not only harvested ballots in 
that election but they destroyed the ballots. I remember it so 
very well. Investigators found that the Republican operatives 
had overseen a network of people who collected absentee 
ballots, which is a violation of our law, and then completed 
those ballots while they were working for Mark Harris, who was 
the Republican nominee in that district.
    And so I just want the record to be perfectly clear.
    To Secretary Padilla, thank you for your testimony today, 
and thank you for your patience with us.
    Nearly half of all registered uniformed and overseas voters 
hold their legal voting residence in California, Florida, and 
the State of Washington. Uniformed servicemembers continue to 
rely primarily on postal mail for their ballots, and the most 
common reason for ballot rejection in 2018 was that the 
completed ballot was received after the State's receipt 
deadline.
    The goal should be that every eligible voter has access to 
the ballot. That is what I think it should be. Every voter 
should have access to the ballot.
    How are you working to ensure uniformed and overseas voters 
have access to that ballot during the pandemic? What are your 
recommendations to uniformed and overseas voters on how best to 
vote in this election?
    Mr. Padilla. No, I appreciate the question.
    As you know, Federal law requires ballots for military and 
overseas voters to go out well in advance of even the rest of 
individuals who vote by mail domestically. So we are coming up 
on that deadline of what we call E-45, 45 days prior to the 
election, to provide ample time for the ballots to get to the 
voter who is overseas.
    I mentioned earlier that we are extending the postmark-
plus-3 policy in California to postmark-plus-17, probably the 
most generous policy in the Nation, allowing ample time for the 
ballots to be returned. That may be something else to consider 
for an improved national standard, because members of our 
military come from every State in the Nation.
    Mr. Butterfield. Sure.
    Let me ask you this. If uniformed voters rely heavily on 
the postal mail to return their ballots, what impact does a 
delayed Postal Service have on the ability of men and women in 
uniform and their family members to return their ballots on 
time?
    Mr. Padilla. We are certainly hoping to properly support 
and fund the U.S. Postal Service so that members of the 
military, who are serving to defend our democracy and willing 
to pay the ultimate price for our democracy, can participate in 
our democracy and not be disenfranchised.
    An added tool: I have talked about our ballot tracking 
system, Where's my Ballot, in California. Of course, every 
member of the military registered to vote in California can and 
should subscribe to that to receive those alerts and 
confirmation messages when their ballot has been received and 
counted.
    Mr. Butterfield. Thank you very much.
    Madam Chair, I yield back.
    The Chairperson. The gentleman yields back.
    At this point, I would recognize for five minutes the 
gentlelady from Ohio, the chair of the Elections Subcommittee, 
Ms. Fudge.
    Ms. Fudge. Thank you very much again, Madam Chair.
    Let me just say that I think it is important that people 
vote the way that they are comfortable voting. If they feel 
comfortable voting from home, they should be allowed to do it. 
And they should be allowed to do it without having to have a 
notary or two adult witnesses or some other foolishness that we 
have in these States.
    Voting is sacred. You talked about John Lewis when you 
first started. It is sacred. It is constitutional. And I think 
that we need to treat it that way. And so those who want to 
vote from home should be able to; those who want to vote in 
person should be able to.
    What we have done in our legislation is to say that, if 
things are so dangerous and you cannot vote in person, we want 
to give you this alternative, and we don't want to make it 
difficult for you. We don't want to put any more impediments in 
your way than we need to.
    Let me just ask each of you, since you all have fortunately 
dealt with this for some time, and, you know, people, like my 
secretary of State, are hoping for more resources. Because they 
are saying, well, we could make this easier if we could put 
postage-paid envelopes, because people will send them back, but 
we don't have the money to do that. Some of the smaller States 
are saying, we need resources for new equipment, because we 
cannot physically put all of these pieces of papers into a 
machine at the kind of speed we need to do it.
    So tell me, what do you think that it would take to really 
get all of our States up to speed resource-wise? You may not 
have an exact number, but for those who have not been doing 
this for a long time, what do you think it is they will need to 
be able to do this well?
    And anyone that wants to answer, please feel free to.
    Mr. Padilla. Well, I will go first, if that is okay.
    First of all, the House of Representatives has already 
taken a significant step in passing the HEROES Act, right? It 
was about $3.6 billion for election modernization and 
administration. I reference in my testimony the recent modest 
appropriations through the CARES Act and the remaining HAVA 
funds. Those are helpful but nowhere near enough.
    And to really put it in context, the last significant 
Federal investment in election modernization and security was 
after the Florida 2000 election debacle. Congress did more in 
response to butterfly ballots and hanging chads than we have 
done in funding or policy in response to documented Russian 
interference in the 2016 election or in preparation for the 
November 2020 election in the era of COVID.
    So additional funding and consistent support for elections.
    Ms. Fudge. Thank you.
    Anyone else?
    Ms. McReynolds. Yes, I would add a couple of things.
    And our organization is working with States on this very 
topic. We have, for instance, an operational toolkit that helps 
them figure out what quantity of mail ballots they are going 
have and then the staff they need.
    So there is still a limited window to implement things like 
ballot tracking and also, for instance, drive-up ballot drop-
off and things like that, and then certainly to plan adequate 
staffing. So, you know, we want folks to utilize the tools that 
have been created by nonprofit organizations like mine to help 
support election offices. And there are other experts and 
officials that are also working this very topic.
    So those things are all happening. Those are going to 
continue to happen. And, at this point, it is really late to 
order significant equipment, because there is just not a way to 
get that in. What we do want to make sure is that the 
applications get processed, the ballots get processed, and that 
States can process things and have timely results.
    The one flag I would finally say is that, in States like 
Michigan, Pennsylvania, Wisconsin, Minnesota, Maryland, they 
all have policy problems on the books in our State laws that 
prevent election officials from processing ballots prior to 
election day. And that is what creates delays.
    And so those State legislative bodies need to act--and they 
can still do so now--to enable election officials the ability 
and the time they need to actually process ballots.
    Ms. Fudge. Thank you. That is something we can do before 
this election, even if we can't get the equipment.
    Ms. Gupta. Congresswoman, if I could also add to that? Can 
you hear me?
    Ms. Fudge. Yes. Please.
    Ms. Gupta. Okay. Just, there still is time for States to 
spend on prepaid postage, to your point that you were making 
earlier.
    And there is also a necessity, as folks have recognized, to 
increase in having younger poll workers. Poll workers typically 
are retirees. We need to make sure that there are enough poll 
workers. And we are doing a lot of poll-worker recruitment at 
the moment, but they need training, they need PPE, and all of 
that costs money.
    Those are resources that, if Congress can support, we can 
make sure that there are--and the NGO community and others are 
working to do this--that there are adequate numbers of poll 
workers that will reduce the need to shut down polling places 
so that we can avoid the kinds of images that we saw in 
Wisconsin. But all of this costs money.
    But this is still--there still is very much a window to get 
this done with additional resources around the country.
    Ms. Fudge. Thank you.
    The Chairperson. Thank you very much.
    The gentlelady's time has expired.
    And, unfortunately, Mr. Aguilar had to leave, so I will 
recognize myself for my five minutes of questions.
    I am going return to you, Mr. Padilla, because I cut you 
off. The five minutes was up. And you were going to explain the 
California procedures where voters get to decide who to give 
their ballot to if they don't want to put it in the mail. Can 
you talk about that?
    Mr. Padilla. So I think the more appropriate term here is, 
you know, what the policy may or may not be on ballot 
collection.
    And so let's put this in context. So California voters 
were--every active registered voter will receive a ballot in 
the mail, by the California schedule, early October, 29 days 
prior to the election. That is the last day for counties to 
send ballots out.
    Voters then have options for how to return the ballot. The 
easiest is by mail. California is one of the States that covers 
the return postage so voters don't have to look for stamps in 
their drawer in the kitchen.
    If people don't feel comfortable with the Postal Service 
because of what has been in the news, they can deliver their 
ballot to any secure ballot drop box that is convenient to them 
in the several weeks leading up to the election.
    Voters also have the option of dropping the ballot off in 
person, if that is their choice, at any voting location in 
their county over the course of the several days that in-person 
voting is being offered.
    And after all that, if--you know, life happens. If you have 
a sick child or some sort of emergency and you can't get your 
ballot back personally, California law empowers voters to 
decide for themselves who they trust to return their ballot for 
them. It used to be limited to immediate family members in the 
same household, but I don't know about you, but I trust my 
neighbor. You know, if we were tied up, I would confidently 
hand my ballot to my neighbor to return for me, if that is what 
I felt comfortable doing.
    So that is really what the California law is: multiple 
options, and voters decide how they choose to return their 
ballot or who they trust to return their ballot for them if 
that is their choice.
    The Chairperson. So I think it is important, all of us who 
are watching the North Carolina debacle--and that was, North 
Carolina does not permit voters to decide that they want their 
neighbor to take the ballot in. But there was a conspiracy, 
really, by political operatives who violated the law. They put 
in false applications for absentee ballots. They destroyed 
ballots. I mean--and they committed crimes, and they were 
prosecuted and convicted of those crimes.
    I would like to ask this. In California, have there been 
any convictions or arrests for misconduct relative to ballots 
being handed to somebody other than the postman?
    Mr. Padilla. Well, we have no documented cases from a March 
2020 primary, but I would also suggest that it is one of the 
tremendous values added of our ballot tracking system. Voters 
will have those alerts, including confirmation of when their 
ballot is received and counted. So more transparency and more 
spotlight on the process is good for election integrity and 
public confidence.
    The Chairperson. So, again, I would like to say that, in 
the 2018 election, both parties had observers, and they were 
there election day, and they were there after election day, 
looking at everything. And there were no complaints filed. You 
know, there were complaints in North Carolina because a crime 
was committed. But not a single election was subject to the 
very partisan people who were there cheering on their side--
there was no misconduct. So I just think it is important to 
clear the record on that point.
    I would just like to ask this of the election officials 
here. It is possible to have your vote disqualified if your 
signature is off or you don't sign. What steps and what 
education efforts should we make so that all the voters who are 
using a vote-by-mail system have a better chance of their vote 
actually being counted?
    Mr. Padilla, you want to start?
    Mr. Padilla. Sure.
    Well, for purposes of this upcoming election, California 
voters should know that if they are voting by mail, that 
signature on the envelope is required. California law requires 
counties to contact the voter if there is any issue with that 
signature--if there is a missing signature or there is a 
signature mismatch--affording that voter an opportunity to 
correct whatever the issue may be so that their ballot can be 
counted and their voice heard in the process. Of course, if it 
wasn't that voter returning that ballot, then there is another 
issue, maybe, to look into.
    In preparation for November, to try to avoid these issues, 
a public information campaign reminding people to sign the back 
of the envelope; a public information campaign to sign up for 
the ballot tracking tools; public education campaign to verify 
the status of their voter registration.
    And, by the way, when a California voter checks their voter 
registration status part of the information on that record is 
the determination of their votes in prior elections. If they 
voted provisionally or they voted by mail, confirmation that 
those ballots were received and counted, and if not, why not. 
So there would be a flag if there was a signature issue from a 
prior election.
    So a lot of wraparound assurances that the ballot will be 
counted, but opportunities for voters to address any issues 
that they have.
    The Chairperson. My time has expired, and I am going to 
call time for me to be fair. And, really, we have each had a 
chance to ask two sets of questions.
    So I would like to ask unanimous consent that all members 
have five legislative days to revise and extend their remarks 
and that written statements be made part of the record and, 
also, that additional questions may be sent to each of the 
witnesses. And if that occurs, we would ask, if possible, for 
you to promptly answer those questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    The Chairperson. I also ask unanimous consent to enter into 
the record the following materials: ``Considerations for 
Modifying the Scale of In-Person Voting'' by the Election 
Infrastructure Government Coordinating Council, as provided on 
the Election Assistance Commission's website; ``Considerations 
for Election Polling Locations and Voters''' by the Centers for 
Disease Control; ``Guidelines for Healthy In-Person Voting'' by 
the Brennan Center; ``Ballot Drop Box Guidance'' created by the 
Cybersecurity and Infrastructure Security Agency.
    And, without objection, those items are made part of the 
record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Davis of Illinois. Madam Chair, I forgot to ask, may I 
ask unanimous consent to submit a letter from Louisiana 
Secretary of State Kyle Ardoin for the record?
    The Chairperson. Of course. Without objection, that is part 
of the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Davis of Illinois. Thank you, Madam Chair.
    The Chairperson. Seeing no further business before us, let 
me thank each of the witnesses for taking the time to be with 
us today. Your testimony was enlightening, and it is very much 
appreciated.
    And if there is nothing further, without objection we will 
adjourn this hearing, with many thanks to all of you and all of 
the Members.
    [Whereupon, at 3:07 p.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
